1a
APPENDIX A
United States Court of Appeals
For the First Circuit
No. 18-1801
MICHAEL COWELS and MICHAEL MIMS,
Plaintiffs, Appellants,
v.
THE FEDERAL BUREAU OF INVESTIGATION,
CHRISTOPHER WRAY, and PAULA WULFF,
Defendants, Appellees.
APPEAL FROM THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF
MASSACHUSETTS
[Hon. Richard G. Stearns, U.S. District Judge]
Before
Thompson, Lipez, and Barron,
Circuit Judges.
Ezekiel L. Hill, with whom David J. Apfel, Kathleen
McGuinness, and Goodwin Procter LLP were on
brief, for appellant Michael Cowels.
Elliot M. Weinstein on brief for appellant Michael
Mims.

2a
Annapurna Balakrishna, Assistant United States
Attorney, with whom Andrew E. Lelling, United
States Attorney, was on brief, for appellees.
August 26, 2019

LIPEZ, Circuit Judge. Appellants Michael
Cowels and Michael Mims were convicted of murder
in state court and spent twenty years behind bars
serving life sentences. After new testing of trial
evidence cast doubt on the verdict, they were granted
a new trial. Subsequent DNA testing of a swab taken
from the inside of a condom recovered in the vicinity
of the victim during the initial investigation revealed
an unknown male DNA profile. Cowels and Mims
obtained a state court order requiring Massachusetts
to upload the DNA profile into a state database of
DNA records for comparison purposes. No matches
were found. The FBI, however, refused to upload the
profile into the national DNA database after
determining that it was ineligible for upload. Cowels
and Mims went to federal court to compel the FBI to
upload the profile, but the district court dismissed
their suit based on its conclusion that the FBI’s
eligibility determination is unreviewable.
Without suggesting that the district court erred in
its analysis, we assume that the FBI’s eligibility
determination is reviewable. Having done so, we
conclude that the determination was not arbitrary
and capricious. We therefore affirm the dismissal of
appellants’ suit.

3a
I.
A. Legal Background
The DNA Identification Act of 1994 authorized the
FBI Director to establish a DNA index, including DNA
identification records of persons charged or convicted
of crimes and “analyses of DNA samples recovered
from crime scenes,” 34 U.S.C. § 12592(a)(1)-(2), “to
facilitate identification information,” id. § 12592
(title). Pursuant to this authority, the FBI Director
created the Combined DNA Index System (“CODIS”),
which operates at the local, state, and national levels.
The State DNA Index System (“SDIS”) is managed by
participating states, and the National DNA Index
System (“NDIS”), which aggregates all the DNA
records contained in the state databases, is managed
by the FBI.1 See generally Boroian v. Mueller, 616
F.3d 60, 63 (1st Cir. 2010) (describing CODIS).
The DNA Identification Act itself lays out certain
minimum standards for determining whether a DNA
record may be uploaded to the CODIS system. For
example, DNA records may only be uploaded if the
underlying analysis was performed by an accredited
laboratory in accordance with quality assurance
standards established by the FBI. 34 U.S.C. §
12592(b)(1)-(2)(A)(i). The FBI’s NDIS Operational
Procedures Manual (“the Manual”) provides
For context, the Massachusetts SDIS contains about
147,290 offender and arrestee DNA profiles, while the NDIS
contains over 17 million offender and arrestee DNA profiles. See
Federal Bureau of Investigation, CODIS - NDIS Statistics (June
2019),
https://fbi.gov/services/laboratory/biometricanalysis/codis/ndi s-statistics (last visited August 22, 2019).
1

4a
additional guidelines for determining whether DNA
records are eligible for inclusion in the NDIS. Of
relevance to this appeal, pursuant to the Manual, a
DNA record that “originate[s] from and/or [is]
associated with a crime scene” is eligible for upload if
it is “believed to be attributable to the putative
perpetrator.”2
B. Factual Background
In 1994, a Massachusetts jury convicted Cowels and
Mims of murdering Belinda Miscioscia, who was
found brutally stabbed to death behind a
woodworking shop in a yard known as a location for
sexual trysts. Among the evidence presented at trial
were two bloody towels recovered from the home of a
friend of Cowels and Mims, which bolstered the
friend’s testimony that Cowels and Mims came to his
home the night of the murder, made incriminating
statements, and cleaned up in his bathroom. Analysis
of the only towel with a large enough amount of blood
for testing neither identified nor excluded the men or
the victim as sources. At trial, a state forensic
scientist also testified about collecting “an older,
wrinkled condom . . . covered with dirt and debris as
well as sawdust” from the vicinity of the body. The
forensic scientist testified that she tested the condom
for hair and fibers and swabbed the inside of the

We base our discussion of the NDIS Manual on the
version included by the parties in the Joint Appendix and relied
on by the district court, which became effective in July 2017. The
parties have not suggested that any other version of the Manual
is relevant to this appeal.
2

5a
condom, confirming the presence of seminal fluid
residue. The condom was not tested for DNA.
Twenty years into serving their life sentences,
Cowels and Mims were granted a new trial by the
Massachusetts Supreme Judicial Court based on new
DNA testing of the previously tested towel. See
Commonwealth v. Cowels, 24 N.E.3d 1034, 1037
(Mass. 2015). The new testing confirmed that the
blood did not come from either man or from the victim.
In preparation for a new trial, other items collected
during the initial investigation were also DNA-tested.
Testing by a state forensic scientist of the swab taken
from inside the condom indicated sperm and nonsperm male DNA from more than one contributor.
Only one of the DNA profiles was suitable for
comparison but it did not match either Cowels or
Mims.3 However, the forensic scientist concluded that
this DNA profile was ineligible for upload to CODIS.
Cowels and Mims filed a motion in Massachusetts
Superior Court to compel the Commonwealth to
submit the condom DNA profile to the SDIS and to
share the results. They contend that uploading the
profile may lead to apprehension of the true killer,
who they speculate could be any one of a number of
violent and jealous men the victim was involved with
in the months before her death. The Commonwealth
opposed the motion, arguing that the DNA profile did
not qualify for submission to CODIS pursuant to FBI
We follow the parties in describing the relevant DNA
information that Cowels and Mims want entered in the national
database as a “DNA profile.” The Manual defines this term as
“[t]he genetic constitution of an individual at defined locations
(also known as loci) in the DNA.”
3

6a
standards. Recognizing that uploading the profile
“risks implicating a person entirely innocent of this
murder, who merely happened to be having sex in the
same area, unrelated to th[e] victim or to the time of
her death,” the Superior Court nonetheless ordered
the Commonwealth to submit the DNA profile to the
SDIS. Sup. Ct. Order Dec. 4, 2017, at 2-3. The
Commonwealth entered the DNA profile into the state
database, but there was no match.
Dorothea Collins, the CODIS administrator for the
Massachusetts State Police Crime Laboratory,
emailed the FBI, informing the agency about the court
order and reiterating the Commonwealth’s view that
the DNA profile is ineligible for upload to either the
SDIS or the NDIS, but requesting that the FBI review
for itself whether the DNA profile is eligible for upload
to the national database. Collins attached to her email
Cowels’s and Mims’s motion in the Superior Court,
the court order, and her affidavit in the Superior
Court matter, in which she stated (1) that the victim’s
body was found “clothed, outside on a platform,” and
that the condom “was found on the ground between
the platform and a tank, covered in sawdust, dirt and
vegetation”; and (2) that the victim’s DNA was not
part of the mixture taken from the inside of the
condom. Collins thus concluded in her affidavit that,
“[a]lthough the condom was collected from the crime
scene during the course of the investigation, its
connection to Ms. Miscioscia is not established to
support a CODIS upload.” Paula Wulff, Unit Chief of
the FBI Office of the General Counsel’s Forensic
Science Law Unit, responded to Collins’s email that
the FBI had reviewed the attached materials and
determined that the DNA profile was not eligible for

7a
upload to the NDIS because the condom was not
sufficiently linked to the victim.
An assistant district attorney followed up with a
request that the FBI consider performing a manual
keyboard search -- which is a method of comparing a
DNA record to other records in CODIS without
uploading the record -- even if they would not upload
the profile to the NDIS. The assistant district attorney
explained, “[w]hile we have shared the FBI’s view of
the relevance of this evidence in our murder case, . . .
I am respectfully requesting that this search be done
as a courtesy to me and my office, out of respect for
the [c]ourt’s prior order, and my desire to avoid the
eventual trial judge, and possibly even the jury,
misunderstanding the failure to upload the DNA
profile in question to NDIS as ‘the government being
obstructionist.’” Wulff also rebuffed this request and
shared a more in-depth written response explaining
the FBI’s determination that the DNA profile was not
eligible for upload to the NDIS or for a manual
keyboard search.
The response explained that the FBI had reviewed
case materials, including the Superior Court order,
Collins’s affidavit, and case notes from the 1993
murder investigation. The response stated that the
case notes described the condom as being discovered
“under sawdust and debris -- covered with sawdust,
dirt, dried vegetation etc. breaking apart.” (Emphasis
by the FBI.) The response also stated, “[t]here is no
indication in the material provided that the condom
was forensically connected to the victim.” Citing the
NDIS Operational Procedures Manual, the response
concluded, “[f]rom the information that has been

8a
provided to the FBI, nothing forensically
demonstrates a link between the victim and the
subject condom to consider the obtained profile as
coming from a putative perpetrator.”
At some point during the course of the back-andforth between the Commonwealth and the FBI,
Cowels and Mims asked the Superior Court to
specifically order the FBI to upload the profile. The
court, however, declined this request, citing a lack of
jurisdiction.
Cowels and Mims then filed a suit for declaratory
and injunctive relief in federal court against the FBI,
Wulff, and FBI Director Christopher Wray
(collectively, “the FBI”), seeking an order directing the
FBI to upload the condom DNA profile to the NDIS or
to perform a manual keyboard search, and to report
the results. In relevant part, they contend that the
FBI’s determination that the DNA profile is ineligible
for upload to the NDIS or for a manual keyboard
search is arbitrary and capricious. The district court
granted the FBI’s motion to dismiss after concluding
that the agency’s eligibility determination is not
subject to judicial review. The court also stated that,
even assuming the determination is subject to judicial
review, Cowels and Mims were not likely to prevail
because “[n]othing in the FBI’s decision rises to [the]
level of capriciousness or indifference.” Cowels v. FBI,
327 F. Supp. 3d 242, 250 n.2 (D. Mass. 2018). This
timely appeal followed.4

Cowels and Mims are not appealing the district court’s
dismissal of their constitutional claims, which we do not
otherwise discuss.
4

9a
II.
We review the district court’s grant of the FBI’s
motion to dismiss de novo and may affirm on any
ground supported by the record. Flores v. OneWest
Bank, F.S.B., 886 F.3d 160, 164 (1st Cir. 2018).
The Administrative Procedure Act (“APA”) waives
federal sovereign immunity for suits alleging injury
by agency action. 5 U.S.C. § 702. However, “agency
action is not subject to judicial review ‘to the extent
that’ such action ‘is committed to agency discretion by
law.’” Lincoln v. Vigil, 508 U.S. 182, 190-91 (1993)
(quoting 5 U.S.C. § 701(a)(2)). The district court
determined that this case presents one of these “rare
instances where statutes are drawn in such broad
terms that in a given case there is no law to apply.”
Cowels, 327 F. Supp. 3d at 249 (quoting Citizens to
Preserve Overton Park, Inc. v. Volpe, 401 U.S. 402,
410 (1971)) (internal quotation marks omitted). In
other words, because the DNA Identification Act
merely authorizes the FBI to create a database that
meets certain minimum standards, but does not
require the inclusion of any material in that database,
“the statute is drawn so that a court would have no
meaningful standard against which to judge the
agency’s exercise of discretion.” Heckler v. Chaney,
470 U.S. 821, 830 (1985).
Cowels and Mims disagree. They do not appear to
contend that the Act alone provides judicially
reviewable standards. Rather, they argue that the Act
when read in conjunction with the NDIS Manual
provides meaningful standards by which to review the
FBI’s determination that the DNA profile was not
eligible for upload. As they put it, “[e]stablishing the

10a
NDIS Manual’s policies and procedures cabined the
FBI’s discretion, and having established those policies
and procedures, the FBI cannot disregard them.”
We need not decide this difficult reviewability issue.
Where a question of statutory jurisdiction is complex,
but the merits of the appeal are “easily resolved
against the party invoking [] jurisdiction,” we can
assume jurisdiction for purposes of deciding the
appeal. In re Fin. Oversight & Mgmt. Bd. for P.R., 916
F.3d 98, 114 n.13 (1st Cir. 2019); see also Royal Siam
Corp. v. Chertoff, 484 F.3d 139, 144 (1st Cir. 2007)
(assuming statutory jurisdiction before determining
whether an agency decision was arbitrary and
capricious). We do so in this case and proceed to the
merits, readily concluding that the FBI’s eligibility
determination was not arbitrary and capricious when
measured by any cognizable standard in the Act or the
Manual.5
An agency action is arbitrary and capricious if the
agency “relied on improper factors, failed to consider
pertinent aspects of the problem, offered a rationale
Under the APA, a reviewing court may, inter alia,
“compel agency action unlawfully withheld or unreasonably
delayed,” 5 U.S.C. § 706(1), or “hold unlawful and set aside
agency action, findings, and conclusions found to be . . . arbitrary,
capricious, an abuse of discretion, or otherwise not in accordance
with law,” id. § 706(2)(A). Appellants pleaded both bases for
judicial review before the district court, but, on appeal, they focus
on their contention that the FBI’s eligibility determination
regarding the DNA profile was arbitrary and capricious. We
reject the FBI’s suggestion that the “gravamen” of appellants’
case is a challenge to agency action “unlawfully withheld” and
that appellants did not adequately plead that the FBI’s eligibility
determination was arbitrary and capricious.
5

11a
contradicting the evidence before it, or reached a
conclusion so implausible that it cannot be attributed
to a difference of opinion or the application of agency
expertise.” Bos. Redevelopment Auth. v. Nat’l Park
Serv. , 838 F.3d 42, 47 (1st Cir. 2016) (quoting
Associated 1997)). Pursuant to this “highly
deferential” standard of review, Citizens Awareness
Network, Inc. v. U.S. Nuclear Regulatory Comm’n, 59
F.3d 284, 290 (1st Cir. 1995), we will uphold an agency
determination if it is “supported by any rational view
of the record,” Atieh v. Riordan, 797 F.3d 135, 138 (1st
Cir. 2015).
Cowels and Mims contend that the FBI’s eligibility
determination was arbitrary and capricious because
the reasons the agency provided to support its
determination that the DNA profile was not
“attributable to the putative perpetrator” -- the
standard from the Manual -- do not withstand
scrutiny.6 We disagree. In the explanation of its
eligibility determination, the FBI focused on (1) the
condition of the condom, and (2) the lack of any
forensic connection between the condom and the
victim. Both of these reasons support the FBI’s
eligibility determination. The condition of the condom
when found -- “covered with sawdust, dirt, dried
vegetation etc. breaking apart” -- supports a
conclusion that the condom was not temporally
In the explanation of its eligibility determination, the
FBI stated that a manual keyboard search is “an exceptional
mechanism that is used in exigent circumstances.” Appellants do
not appear to challenge the FBI’s implicit conclusion that exigent
circumstances supporting a manual keyboard search do not exist
in this case regardless of whether the DNA profile was eligible
for upload.
6

12a
related to the murder. And the lack of DNA evidence
tying the condom to the victim supports a conclusion
that, given the condition of the condom, uploading the
DNA profile could implicate an innocent person rather
than reveal the perpetrator.
Cowels’s and Mims’s attempts to poke holes in the
FBI’s reasons for its determination are unavailing.
Regarding the condition of the condom, they point to
the fact that the condom was collected and tested by a
forensic scientist at the time of the original
investigation, and that the Commonwealth DNAtested the condom swab after they were granted a new
trial. They argue that this testing shows that the
Commonwealth believed the condom was connected to
the murder despite its condition. Moreover, they
contend that the Commonwealth changed its view
only when it became clear that the condom could be
exculpatory. But the record before us does not support
the contention that the Commonwealth necessarily
viewed the condom as connected to the putative
perpetrator. As noted, the forensic scientist who
collected the condom testified at trial that it was “an
older, wrinkled condom . . . covered with dirt and
debris as well as sawdust” (emphasis added), and it
does not appear that the condom featured in the
prosecution’s case at trial, see Cowels, 24 N.E.3d at
1038-1040. Similarly, we cannot glean from the mere
fact that the Commonwealth DNA-tested multiple
items, including the condom swab, after the men were
granted a new trial, that the Commonwealth saw the
condom as related to the perpetrator until it was
determined to be potentially exculpatory. Most
importantly, we do not see how any shift in the
Commonwealth’s position undermines the FBI’s

13a
ability to make its own independent judgment, on the
basis of undisputed facts, about the condition of the
condom and its temporal connection to the murder.
Regarding the lack of a forensic connection between
the condom and the victim, appellants contend that
the FBI “ignore[d] the fact that the Swab DNA Profile
was not taken from the Condom but from the Swabs
of the inside of the Condom, and that the Condom
itself” -- that is, the outside of the condom, where the
victim’s DNA would more likely be found -- “was never
tested for DNA.”7 They therefore suggest that the
FBI’s eligibility determination was based in part on
“the arbitrary and capricious view that the inside of
the Condom could somehow include [the victim]’s
DNA.” Some of the language in the FBI’s written
explanation of its eligibility determination does
suggest that the agency was not fully attuned to the
distinction between the DNA testing of the swab from
the inside of the condom and testing of the outside of
the condom, which was never performed. See, e.g.,
FBI Response to NDIS Upload Request, at 1 (noting
the absence of the victim’s DNA “as would be expected
had the condom come in contact with the victim”).
However, the FBI’s entire explanation makes
reasonably clear that the agency’s focus was on the
absence of any DNA connection in the record between
the condom and the victim -- a lack of connection that
appellants do not contest -- rather than on a
The parties have not contended before us that the outside
of the condom can now be tested to determine whether the
victim’s DNA is present. Indeed, at oral argument, appellants’
counsel explicitly stated that he was not representing that there
is a possibility that the outside of the condom can now be tested.
7

14a
misguided
understanding
that
testing
had
definitively established that the condom had never
come into contact with the victim.8 In other words, the
FBI correctly noted that the record before it did not
establish any DNA connection between the condom
and the victim. And we readily conclude that this
absence of evidence was a rational reason, along with
the condom’s condition, for the FBI’s determination
that the swab DNA profile could not be “attribut[ed]
to the putative perpetrator,” and therefore was
ineligible for upload to the NDIS.9
III.
For the foregoing reasons, we affirm the dismissal
of appellants’ claims.
So ordered.

We do not rely on the FBI’s contention, seemingly first
raised at oral argument, that there was effectively no distinction
between the outside and the inside of the condom because it was
breaking apart.
9
Because we affirm on the basis that the FBI’s eligibility
determination was not arbitrary and capricious, we do not opine
on the FBI’s argument that Cowels and Mims would not be
entitled to information resulting from comparing the condom
DNA profile with DNA records in the NDIS.
8

15a
APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
CIVIL ACTION NO. 18-10578-RGS
MICHAEL COWELS and MICHAEL MIMS
v.
THE FEDERAL BUREAU OF INVESTIGATION,
CHRISTOPHER WRAY, and PAULA WULFF
MEMORANDUM OF DECISION AND ORDER
ON DEFENDANTS’ MOTION TO DISMISS
August 7, 2018
STEARNS, D.J.
In February of 2015, after Michael Cowels and
Michael Mims (together, plaintiffs) had spent over 20
years in state prison for first-degree murder, the
Massachusetts Supreme Judicial Court vacated their
convictions and ordered them retried based on “newly
discovered evidence.” In sum, post-conviction DNA
testing on a bloody towel with which plaintiffs were
said to have wiped their hands after stabbing the
victim revealed no trace of either of their DNA (or of
the female victim’s), but rather the DNA of an
unidentified male. As counsel for Cowels and Mims
prepared for the retrial in Superior Court, the
Commonwealth ordered a DNA test of a used condom
that had been found by police in the vicinity of the
murder. This test also yielded the profile of an
unidentified male. On counsel’s motion, and over the

16a
Commonwealth’s objection, a Superior Court judge
ordered the profile to be uploaded into the
Massachusetts State DNA Index System (SDIS), the
state component of the national Combined DNA Index
System (CODIS) - but no matches were returned.
Counsel then sought an order from the Superior Court
directing the Federal Bureau of Investigation (FBI) to
enter the unidentified DNA profile into the National
DNA Index System (NDIS) or to perform a “keyboard
search” in hopes of finding a match. The Superior
Court judge refused, citing a lack of jurisdiction to
issue the proposed order. The FBI then declined
counsel’s request to enter the profile into NDIS, after
determining that it was ineligible because it did not
appear to be attributable to a potential perpetrator.
Plaintiffs brought this lawsuit in the federal district
court, seeking the same injunctive and declaratory
relief that had been denied by the Superior Court.
Before this court is a motion by defendants to dismiss
the Complaint.
BACKGROUND
In 1994, Congress passed the DNA Identification
Act, which authorized the Director of the FBI to
establish “a national identification index of DNA
records.” 34 U.S.C. § 12592(a); Compl. ¶ 25; FBI’s
Mem. in Supp. of Its Mot. to Dismiss (FBI’s Mem.) at
2. Subsequently, the FBI created the Combined DNA
Index System (CODIS), a DNA database which
“identifies serial criminals by linking DNA evidence
obtained from two or more crime scenes,” as well as
comparing “crime scene evidence to DNA profiles from
offenders, thereby providing investigators with the
identity of the putative perpetrator.” Id. at 3; Compl.

17a
¶ 25. CODIS operates on both the state and the
national level - the State DNA Index System (SDIS) is
administered by participating states, and the
National DNA Index System (NDIS) is managed by
the FBI. Id. ¶ 26.
FBI procedures for maintaining the integrity of
NDIS are set out in the NDIS Operational Procedures
Manual (NDIS Manual). Id. ¶ 27. According to the
Manual, a DNA record is considered “eligible for
inclusion in NDIS if it ‘originate[s] from and/or [is]
associated with a crime scene,’ ‘the source of which is
attributable to a putative perpetrator.’” Id. ¶ 28
(quoting NDIS Manual at 27). An eligible record is
generally “recovered directly from a victim (such as a
sexual assault evidence kit), the victim’s clothing, or
the crime scene, and [is] believed to be attributable to
the putative perpetrator.” FBI’s Mem. at 3. Eligibility
determinations are made by trained technicians and
scientists, in compliance with state and federal
requirements. Id. While normally DNA profiles are
uploaded into the NDIS for analysis, the FBI can also
perform what is known as a “keyboard search,” which,
according to plaintiffs (although the point is not
conceded by the FBI), allows a DNA profile to be
compared with others stored in the database without
uploading it permanently in NDIS. Compl. ¶ 30.
THE CRIME AND ITS AFTERMATH
Belinda Miscioscia was stabbed to death in June of
1993; her body was discovered in a “lover’s lane”
behind a Chelsea, Massachusetts woodworking shop.
Id. ¶ 15; FBI’s Mem. at 4. In December of 1994,
Cowels and Mims were convicted by a Superior Court
jury of the murder of Miscioscia. Compl. ¶ 16. More

18a
than 20 years later, in February of 2015, the
Massachusetts Supreme Judicial Court ordered a new
trial. See Commonwealth v. Cowels, 470 Mass. 607,
624 (2015).
While searching the area of the “lover’s lane” where
Miscioscia’s body was found, Massachusetts state
police came upon a used condom, which was
eventually tested for hair, fibers, and the presence of
seminal fluid. Id. ¶ 19. Although seminal fluid was
detected, it was not subjected to DNA testing prior to
the original murder trial. Id. In January of 2017,
acting on a request from the Commonwealth, Amy
Joy, a “forensic scientist with the Massachusetts State
Police Crime Laboratory,” tested swabs taken from
the condom. Id. ¶¶ 22-23; FBI’s Mem. at 4. Joy
detected a male DNA profile that did not match either
plaintiff; however, she ultimately determined that
“the swabs were ineligible for inclusion in CODIS.” Id.
In October of 2017, plaintiffs filed a motion in the
Massachusetts Superior Court to compel the
Commonwealth to submit the newly revealed DNA
profile to CODIS. Compl. ¶ 32. The Commonwealth
opposed the motion on grounds that “the DNA profile
did not meet FBI standards for inclusion.” FBI’s Mem.
at 4. The Superior Court judge hearing the motion
nevertheless ordered the Commonwealth to enter the
profile into SDIS. Id. The Commonwealth complied,
although the comparison search yielded no matches.
Compl. ¶ 34.
Dorothea Collins, the DNA Unit Supervisor-CODIS
of the Massachusetts State Police Crime Laboratory,
subsequently informed the FBI that while she
believed the DNA profile was ineligible for inclusion

19a
in CODIS, the Commonwealth had been ordered to
upload it into the state database. FBI’s Mem. at 4-5.
The FBI in turn declined to perform a matching
search in NDIS. Id. at 5. More specifically, the FBI
noted that three experienced scientists had all
independently determined, according to the NDIS
protocol, that the profile was ineligible for inclusion.
Id. Because the condom was “covered in sawdust, dirt,
and vegetation” when it was found, these scientists
concluded that its condition was “not tied to the same
time frame of the crime.” Id. at 9-10. Furthermore, the
condom’s presence in a “lover’s lane” area made it
likely that it was an artifact of a past tryst, thereby
risking the implication of an innocent person in the
crime. Id. at 11, 15. Plaintiffs then asked the Superior
Court judge to order the FBI to enter the profile
notwithstanding the determination of ineligibility. Id.
The judge, citing a lack of jurisdiction, declined the
request. Id.; Compl. ¶ 38. The Commonwealth then
requested that the FBI conduct a keyboard search
“out of respect for the Court’s prior order.” Id. ¶ 39.
Once again, the FBI declined, repeating the prior
explanation that “nothing forensically demonstrates a
link between the victim and the subject condom to
consider the obtained profile as coming from a
putative perpetrator.” FBI’s Mem. at 5-6.
On March 26, 2018, plaintiffs - claiming that the
FBI’s refusal violated the DNA Information Act as
well as their rights under the Fifth and Sixth
Amendments of the United States Constitution brought suit for injunctive and declaratory relief in
federal court, relying on the Administrative Procedure
Act (APA). Compl. TT 57, 60, 64; Pls.’ Opp’n to Def.’s
Mot. to Dismiss (Pls.’ Opp’n) at 13. The FBI

20a
subsequently moved to dismiss, asserting that
plaintiffs lack standing to litigate the issue and that
the Complaint in any event fails to plead a viable
claim. See Fed. R. Civ. P. 12(b)(1), (6).
STANDARD OF REVIEW
Standing is a necessary prerequisite to a court’s
Article III authority to adjudicate a case, and
challenges to standing therefore must be resolved
before a court may reach the merits. See Baena v.
KPMG LLP, 453 F.3d 1, 4 (1st Cir. 2006). “[A]t the
pleading stage, the plaintiff bears the burden of
establishing sufficient factual matter to plausibly
demonstrate [its] standing to bring the action.”
Hochendoner v. Genzyme Corp., 823 F.3d 724, 731 (1st
Cir. 2016). In this context, “[q]uestions of statutory
interpretation are questions of law.” HernandezMiranda v. Empresas Diaz Masso, Inc., 651 F.3d 167,
170 (1st Cir. 2011).
If a plaintiff successfully establishes standing, he
must state a claim for relief “that is plausible on its
face” to survive a motion to dismiss. Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). This burden
“requires more than labels and conclusions, and a
formulaic recitation of the elements of a cause of
action will not do.” Id. at 555. However, in evaluating
a motion to dismiss, the court takes the “factual
allegations in the complaint as true and make[s] all
reasonable inferences” in favor of the non-moving
party. See Mississippi Pub. Emps.’ Ret. Sys. v. Boston
Sci. Corp., 523 F.3d 75, 85 (1st Cir. 2008).

21a
DISCUSSION
Sovereign Immunity
The FBI contends that because the DNA
Identification Act gives it unbridled discretion over
the eligibility requirements for CODIS, plaintiffs’
claims are barred by the FBI’s immunity from suit “as
an arm of the state.” Plaintiffs for their part argue
that, because a meaningful standard for judicial
review has been created by the DNA Identification Act
and the NDIS Manual (when read together), the FBI’s
immunity has been waived for APA purposes. “The
basic rule of federal sovereign immunity is that the
United States [and its agencies] cannot be sued at all
without the consent of Congress.” Block v. North
Dakota ex rel. Bd. of Univ. and Sch. Lands, 461 U.S.
273, 287 (1983). In certain circumstances, the APA
waives sovereign immunity:
A person suffering legal wrong because of agency
action . . . is entitled to judicial review thereof. An
action in a court of the United States seeking relief
other than money damages and stating a claim
that an agency or an officer or employee thereof
acted or failed to act in an official capacity or
under color of legal authority shall not be
dismissed nor relief therein be denied on the
ground that it is against the United States or that
the United States is an indispensable party.
5 U.S.C. § 702. However, there is a crucial caveat
when equitable claims are asserted: “This chapter [of
the APA] applies, according to the provisions thereof,
except to the extent that . . . agency action is
committed to agency discretion by law.” 5 U.S.C. §

22a
701(a)(2). Therefore, if Congress vests an agency with
unfettered discretion in the implementation of a
statute, a plaintiff’s equitable claims remain barred
by sovereign immunity.
Section 701(a)(2) is applicable “in those rare
instances where ‘statutes are drawn in such broad
terms that in a given case there is no law to apply.’”
Citizens to Preserve Overton Park, Inc. v. Volpe, 401
U.S. 402, 410 (1971). “Even when Congress has not
affirmatively precluded judicial oversight, ‘review is
not to be had if the statute is drawn so that a court
would have no meaningful standard against which to
judge the agency’s exercise of discretion.’” Webster v.
Doe, 486 U.S. 592, 599-600 (1988) (quoting Heckler v.
Chaney, 470 U.S. 821, 830 (1985)). When determining
whether a statute falls within the discretionary
language of § 701(a)(2), “careful examination of the
statute” is required. Webster, 486 U.S. at 600.
The DNA Information Act, in relevant part, states
the following with respect to the storage of
information in CODIS:
The index described in subsection (a) shall only
include information on DNA identification records
and DNA analyses that are —
(1) Based on analyses performed by or on behalf
of a criminal justice agency . . . in accordance
with publicly available standards that satisfy
or exceed the guidelines for a quality
assurance program for DNA analysis, issued
by the Director of the Federal Bureau of
Investigation under section 12591 of this title
....

23a
(3) Maintained by Federal, State, and local
criminal justice agencies . . . pursuant to rules
that allow disclosure of stored DNA samples
and DNA analyses only . . . .
c.

For criminal defense purposes, to a
defendant, who shall have access to
samples and analyses performed in
connection with the case in which such
defendant is charged.

34 U.S.C. § 12592(b)(1), (3)(c) (emphasis added). The
statute’s language is plain and “fairly exudes
deference to the” FBI. Webster, 486 U.S. at 600. It
therefore “foreclose[s] the application of any
meaningful judicial standard of review.” Id. No
provision of the statute requires the FBI to enter
samples into NDIS. Quite the opposite. The Act
specifies what the index “shall only include,” that is,
those samples that meet the standards established by
the Director of the FBI. As the statute only establishes
what may not be included in CODIS (samples that do
not meet the Director’s standards), the most that can
be said is that it defines no more than an entry portal
for samples that could be eligible for inclusion (that is,
those that do meet the Director’s standards). Because
the Act provides no guidance for samples that must be
included, nor imposes any obligation on the Director
to include any sample at all, I see “no basis on which
a reviewing court could properly assess” the Director’s
discretionary eligibility decision. Id.10

While plaintiffs contend that the NDIS Manual operates
to create a standard for judicial review when read with the DNA
Information Act, just the opposite is true. The Manual
unequivocally declares the FBI’s broad discretion to manage
10

24a
NDIS’ structure and purpose further support the
conclusion that Congress intended for the gathering
of samples under the DNA Information Act to be
wholly discretionary. NDIS’ mission is to “identif[y]
serial criminals by linking DNA evidence” from
disparate crime scenes. FBI’s Mem. at 3. The integrity
of the NDIS is of paramount importance in attaining
that goal. The Director of the FBI has accordingly
been given the sole responsibility of guarding the
integrity of the index. If this court were to compel the
Director to abandon that mission by entering a
condom profile into NDIS that he has determined to
be ineligible, the door would be open to further
challenges to the Director’s authority, leaving NDIS
vulnerable to the forced inclusion of contaminated
and, possibly, falsely incriminating evidence. It
follows that plaintiffs are precluded by Section
701(a)(2) of the APA from seeking either injunctive or
declaratory relief in this court for violation of the DNA
Information Act.11
Constitutional claims, on the other hand, may be
precluded by statute only when the “intent [of
Congress] to do so [is] clear.” Webster, 486 U.S. at 603.
NDIS as it sees fit: “The FBI . . . is responsible for determining
issues of policy in its administration of [NDIS].” NDIS Manual at
6. Moreover, the Manual, like the Act itself, offers no direction as
to when a sample must be included in NDIS.
11
Even assuming, arguendo, that plaintiffs did have
standing to bring their DNA Information Act claim, this court is
doubtful that they would prevail. A reviewing court may “hold
unlawful and set aside agency action, findings, and conclusions
found to be arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law.” 5 U.S.C. § 706(2). Nothing
in the FBI’s decision rises to this level of capriciousness or
indifference.

25a
This heightened standard exists “to avoid the ‘serious
constitutional question’ that would arise if a federal
statute were construed to deny any judicial forum for
a colorable constitutional claim.” Id. (quoting Bowen
v. Michigan Acad. of Family Physicians, 476 U.S. 667,
681 n. 12 (1986)). The APA does not explicitly preclude
bringing such claims; in fact, plaintiffs’ equitable
claims under the Fifth and Sixth Amendments would
appear to fall within Section 702’s explicit waiver of
sovereign immunity in those cases in which a
petitioner is “seeking relief other than money
damages and stating a claim that an agency or an
officer or employee thereof acted or failed to act.” 5
U.S.C. § 702. Consequently, the court will turn to the
merits of plaintiffs’ constitutional claims.
Fifth Amendment Due Process
Plaintiffs claim that the FBI’s refusal to upload the
DNA profile into NDIS or perform a keyboard search
violates their procedural and substantive rights to
due process under the Fifth Amendment, “including
their right to present evidence of third-party guilt in
their upcoming retrial.” Compl. ¶ 57. The FBI argues
that plaintiffs fail to state a claim under either form
of due process, as they have failed to allege that they
have been deprived of a liberty interest or a property
right by any action of the federal government or its
officials.
When assessing a due process claim, the court
undertakes a two-step analysis: “[T]he first asks
whether there exists a liberty or property interest
which has been interfered with by the [government];
the second examines whether the procedures
attendant upon that deprivation were constitutionally

26a
sufficient.” Harron v. Town of Franklin, 660 F.3d 531,
537 (1st Cir. 2011). Plaintiffs’ procedural due process
claim fails at the outset. “There is no general
constitutional right to discovery in a criminal case.”
Weatherford v. Bursey, 429 U.S. 837, 846 (1977).12 It
follows that a criminal defendant (state or federal)
cannot invoke procedural due process as a mechanism
to compel a federal agency - which has no connection
to his prosecution by an equally sovereign entity - to
undertake an affirmative exploration for exculpatory
evidence that may or may not exist. While it is true
that “the government has the obligation to turn over
evidence in its possession that is both favorable to the
accused and material to guilt or punishment,”
Pennsylvania v. Ritchie, 480 U.S. 39, 57 (1987)
(emphasis added), there is no duty on the part of the
government to produce evidence that it neither
possesses nor controls. United States v. Bender, 304
F.3d 161, 163-164 (1st Cir. 2002). This has all the
more force when a defendant is not seeking to compel
the production of evidence that is known to exist, but
to compel an attempt to create it.
Plaintiffs also fail to state a claim for a violation of
substantive due process. To make out such a claim,
plaintiffs must show “that they suffered the
deprivation of an established life, liberty, or property
interest, and that such deprivation occurred through
While a criminal defendant certainly possesses the “right
to have ‘a meaningful opportunity to present a complete
defense,’” including presenting evidence of third-party guilt, this
right pertains to the admissibility of evidence during trial, and
not the gathering of evidence during discovery. Holmes v. South
Carolina, 547 U.S. 319, 331 (2006) (quoting Crane v. Kennedy,
476 U.S. 683, 690 (1986)).
12

27a
governmental action that shocks the conscience.”
Clark v. Boscher, 514 F.3d 107, 112 (1st Cir. 2008)
(emphasis in original). “We have emphasized time and
again that ‘[t]he touchstone of due process is
protection of the individual against arbitrary action of
government,’ . . . whether the fault lies in a denial of
fundamental procedural fairness, . . . or in the exercise
of power without any reasonable justification in the
service of a legitimate governmental objective . . . .”
Cnty. of Sacramento v. Lewis, 523 U.S. 833, 845-846
(1998) (internal citation omitted). To be actionable
under the Due Process Clause, misconduct by state
actors must exceed a high threshold of allowance for
human shortcomings in managing the intricate
processes of government.
[T]he Constitution does not guarantee due care on
the part of state officials; liability for negligently
inflicted harm is categorically beneath the
threshold of constitutional due process. . . . It is,
on the contrary, behavior at the other end of the
culpability spectrum that would most probably
support a substantive due process claim; conduct
intended to injure in some way unjustifiable by
any government interest is the sort of official
action most likely to rise to the conscienceshocking level.13
Substantive due process is a doctrine reserved for
egregious official conduct trenching on the most
fundamental of civil liberties. “As a general matter,
[we have] always been reluctant to expand the concept
of substantive due process because guideposts for
responsible decisionmaking in this uncharted area are
13

Id. at 849.

28a
scarce and open-ended.” Collins v. City of Harker
Heights, 503 U.S. 115, 125 (1992). See also Albright v.
Oliver, 510 U.S. 266, 272 (1994) (“The protections of
substantive due process have for the most part been
accorded to matters relating to marriage, family,
procreation, and the right to bodily integrity.”). Cf.
Bielawski v. Personnel Adm’r, 422 Mass. 459, 467
(1996) (Substantive due process is not an “open-ended
. . . charter” for judicial interference with the duties of
other government officials.).
I would be hard pressed to find that the
discretionary refusal of the Director of the FBI to
undertake a task that he has reasonably deemed to be
potentially destructive to his duty to protect the NDIS
is a decision so arbitrary and cruel that it shocks the
judicial conscience. The substantive due process claim
consequently fails as well.
Sixth Amendment Compulsory Process
Finally, plaintiffs contend that the FBI’s refusal to
include the DNA profile in NDIS or to perform a
keyboard search contravenes their Sixth Amendment
rights, “including their rights under the Compulsory
Process Clause.” Compl. ¶ 57. The Compulsory
Process Clause of the Sixth Amendment provides: “In
all criminal prosecutions, the accused shall enjoy the
right . . . to have compulsory process for obtaining
witnesses in his favor.” U.S. Const. amend. VI. As
with the Fifth Amendment, the Compulsory Process
Clause “guarantees criminal defendants a meaningful
opportunity to present a complete defense.” Holmes,
547 U.S. at 324.

29a
The Compulsory Process Clause does not confer
upon a defendant a right to compel DNA testing
during discovery; it rather protects a defendant’s right
to present evidence and testimony at trial. See
DiBenedetto v. Hall, 272 F.3d 1, 8 (1st Cir. 2001).
Defendants are correct in their assertion that it would
be
an
extraordinary
and
unprecedented
weaponization of the
Compulsory Process Clause to construe it to “compel
an agency totally uninvolved in [a] trial to not only
contribute but develop evidence for a criminal
defendant’s case.” FBI’s Reply Br. at 8.
ORDER
For the foregoing reasons, the defendants’ motion to
dismiss is ALLOWED with prejudice. The Clerk will
enter judgment accordingly and close the case.
SO ORDERED.
/s/ Richard G. Stearns
UNITED STATES
DISTRICT JUDGE

30a
APPENDIX C
The FBI received material to review in the matter of
Commonwealth of Massachusetts v. Michael Cowels
and Michael Mims (Superior Court Department of the
Trial Court Docket Nos. SURC 1991-11090 and SUCR
1993-11148), specifically: (1) Ruling and Order on
Defendant’s Joint Motion for an Order Requiring the
Submission of DNA Results to CODIS; (2) DNA
Affidavit of Dorothea S. Collins; and (3) Defendant’s
Motion for an Order Requiring the Submission of
DNA Results to CODIS).
From the material the FBI has been provided, it
appears that a condom collected and subsequently
analyzed as reported in Massachusetts Crime
Laboratory No. C93-0680 Chelsea, Incident No. 1993031050) yielded a DNA profile inconsistent with that
of either defendant or (now deceased) Robert Saliea.
There is no indication in the material provided that
the condom was forensically connected to the victim
(no alleles, partial or full profile reported as would be
expected had the condom come in contact with the
victim).
The Commonwealth Order directs Commonwealth to
“submit the DNA profile referenced by the January
Report to the Combined DNA Index System
(“CODIS”), and to provide defendants with the results
of that submission.” It is our understanding that the
Massachusetts Laboratory has complied with this
Order and compared the inconsistent DNA profile to
other DNA profiles maintained in the Massachusetts
state level of CODIS.

31a
Separately, the FBI has been asked to evaluate
whether the inconsistent DNA profile obtained from
the condom may be uploaded to or keyboard searched
against the National Level of CODIS (NDIS). In order
to evaluate this request, the Massachusetts Crime
Laboratory provided the FBI with the text of “Crim
bench” notes for this case (dated 1993) which state the
“[c]ondom from ground other side of platform, side of
tank, under sawdust and debris - covered with
sawdust, dirt, dried vegetation etc. breaking apart”
[emphasis added].
From the materials the FBI has been provided to
evaluate this request, it does not appear that there is
a forensic nexus between Ms. Belinda Misciocia and
the condom to establish a putative perpetrator for the
crime. In order for a DNA profile to be eligible for
upload or manual keyboard search in NDIS, it must
originate from and/or be associated with a crime scene
and be attributable to a putative perpetrator. [See
NDIS Procedures Manual Sections 3.1.1.1.: Eligibility
of DNA Records for Forensic Indexes at NDIS and
Section 5.3: Manual Keyboard Search found at
https://www.fbi.gov/file-repository/ndis-proceduresmanual-ver4approved-04272016.pdf/view]
for
eligibility requirements. From the information that
has been provided to the FBI, nothing forensically
demonstrates a link between the victim and the
subject condom to consider the obtained profile as
coming from a putative perpetrator.
A manual keyboard search is an exceptional
mechanism that is used in exigent circumstances to
compare a target DNA record against DNA records
contained in NDIS before the laboratory’s next

32a
routine upload of DNA data. Each NDIS participating
laboratory uploads DNA records pursuant to a set
schedule (once or several times a week contingent on
the state), however a keyboard search may be
conducted under exigent circumstances with the
NDIS Custodian’s approval before the designated
upload schedule. Exigent circumstances exist, for
example when a DNA profile has been developed in
connection with a suspected serial crime and it
appears that such serial offenses may be committed
before the next scheduled state CODIS search.
The FBI NDIS Custodian has determined that the
major DNA profile developed by Massachusetts Crime
Laboratory from Massachusetts Crime Laboratory
No. C93-0680 DNA sample is not eligible for NDIS
and therefore is not eligible for a manual keyboard
search.

